yim
\

C@OCKLE

2311 Douglas Street E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B picts contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-1642
BRIAN DOTY,
Petitioner,
Vv.
TAPPAN ZEE CONSTRUCTORS, LLC,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 2719 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of June, 2021.
[am duly authorized under the laws of the State of Nebraska to administer oaths.

few atric WOTARY-State of Nebraska &v a 4 be
few atric aoss ¢ deedraw °

My Comm. Exp. September 5, 2023

 

Notary Public Affiant

41110
